No.
IN THE
SUPREME COURT OF THE UNITED STATES
______________________________________
JONATHAN LINDSEY, Petitioner,
-vsPEOPLE OF THE STATE OF ILLINOIS, Respondent.
______________________________________
On Petition For Writ Of Certiorari
To The Supreme Court Of Illinois
______________________________________
PETITION FOR WRIT OF CERTIORARI
______________________________________
JAMES E. CHADD
State Appellate Defender
THOMAS A. KARALIS
Counsel of Record
Deputy Defender
Office of the State Appellate Defender
Third Judicial District
770 E. Etna Road
Ottawa, IL 61350
(815) 434-5531
3rdDistrict@osad.state.il.us
COUNSEL FOR PETITIONER
Of Counsel:
Editha Rosario-Moore
Assistant Appellate Defender

QUESTION PRESENTED FOR REVIEW
Whether the government’s warrantless use of a narcotics detection dog on a
dwelling without curtilage violates the resident’s Fourth Amendment right against
unreasonable searches and seizures.

i

TABLE OF CONTENTS
Question Presented for Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
Table of Authorities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iii
Opinion Below . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Statement of Jurisdiction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Constitutional and Statutory Provisions Involved . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Statement of the Case . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Reasons for Granting the Petition. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
I.

The Illinois Supreme Court’s Decision Splits from this Honorable Court’s
Precedent Rejecting a “Mechanical Application” of the Fourth Amendment and
Holding that a Motel Guest Has the Same Reasonable Expectation of Privacy
as any Other Resident in Their Dwelling. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
A.

This Court Has Rejected a “Mechanical Application” of the Fourth
Amendment and Held That the Government Need Not Commit a Physical
Trespass to Violate a Person’s Fourth Amendment Rights. . . . . . . . . 8

B.

This Court’s Precedent Has Long Held That Motel Guests Have a
Reasonable Expectation of Privacy in Their Dwelling.. . . . . . . . . . . . 12

II.

This Court Should Resolve the Split Over Whether Narcotics Dog Sniffs of
Dwellings Without Curtilage Are Fourth Amendment Searches. . . . . . . . . 15

III.

This Case is an Ideal Opportunity for Resolving these Important and Recurring
Questions of Fourth Amendment Jurisprudence. . . . . . . . . . . . . . . . . . . . . . 20

Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
INDEX TO APPENDIX
Appendix A:

Supreme Court of Illinois Order denying Petition for Rehearing

Appendix B:

Decision of Supreme Court of Illinois People v. Lindsey, April 16,
2020 modified September 28, 2020

Appendix C:

Decision of Appellate Court of Illinois. People v. Lindsey, 2018 IL
App (3d) 150877

ii

TABLE OF AUTHORITIES
Cases:

Page

Federal Cases:
Florida v. Jardines, 569 U.S. 1 (2013) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
Illinois v. Caballes, 543 U.S. 405 (2005) . . . . . . . . . . . . . . . . . . . . . . . . . . 7, 14, 19, 21
Kyllo v. United States, 533 U.S. 27 (2001) . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
Minnesota v. Olson, 495 U.S. 91 (1990). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
New York v. Class, 475 U.S. 106 (1986) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
United States v. Place, 462 U.S. 696 (1983) . . . . . . . . . . . . . . . . . . . . . . . 7, 14, 19, 21
Smith v. Maryland, 442 U.S. 735 (1979) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Katz v. United States, 389 U.S. 347 (1967) . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
Stoner v. California, 376 U.S. 483 (1964) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Silverman v. United States, 365 U.S. 505 (1961) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Johnson v. United States, 333 U.S. 10 (1948) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
United States v. Whitaker, 820 F.3d 849 (7th Cir. 2016) . . . . . . . . . . . . . 6, 18, 20, 21
United States v. Hopkins, 824 F.3d 726 (8th Cir. 2016) . . . . . . . . . . . . . . . . . . . . . 20
United States v. Pinson, 24 F.3d 1056 (8th Cir. 1994) . . . . . . . . . . . . . . . . . . . . . . . 17
United States v. Roby, 122 F.3d 1120 (8th Cir. 1997) . . . . . . . . . . . . . . . . . . 5, 16, 17
United States v. Thomas, 757 F.2d 1359 (2d Cir. 1985) . . . . . . . . . . . . . . . . . . . 18, 19
State Cases:
Jardines v. State, 73 So.3d 34 (Fla. 2011), . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Sanders v. Commonwealth, 772 S.E.2d 15 (Va. Ct. App. 2015) . . . . . . . . . . . . . . . . 18
State v. Foncette, 356 P.3d 328 (Ariz. Ct. App. 2015) . . . . . . . . . . . . . . . . . . . . . . . . 18
State v. Nguyen, 841 N.W.2d 676 (N.D. 2013) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

iii

State v. Edstrom, 916 N.W.2d 512 (Minn. 2018) . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
People v. Bonilla, 120 N.E.3d 930 (Ill. 2018) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
Federal Constitutional Provisions:
U.S. Const. amend. IV . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 8
Federal Statutory Provision:
28 U.S.C. §1257(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
State of Statutory Provisions:
725 ILCS 105/10(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28

iv

No.
IN THE
SUPREME COURT OF THE UNITED STATES
______________________________________
JONATHAN LINDSEY, Petitioner,
-vsPEOPLE OF THE STATE OF ILLINOIS, Respondent.
______________________________________
On Petition For Writ Of Certiorari
To The Supreme Court Of Illinois
______________________________________
The petitioner, Jonathan Lindsey, respectfully petitions this Court for a writ of
certiorari to be granted to review the judgment of the Supreme Court of Illinois
affirming his conviction.
OPINIONS BELOW
The order of the Supreme Court of Illinois denying Jonathan Lindsey’s petition
for rehearing is attached as Appendix A. The published opinion of the Supreme Court
of Illinois affirming Jonathan Lindsey’s conviction, including a dissenting opinion, is
reported at 2020 IL 124289, and is attached as Appendix B. The published opinion of
the Appellate Court of Illinois reversing Jonathan Lindsey’s conviction, including a
dissenting opinion, is reported at 2018 IL App (3d) 150877, and is attached as
Appendix C.

-1-

JURISDICTION
On April 16, 2020, the Supreme Court of Illinois issued an opinion. A petition
for rehearing was timely filed and denied on September 28, 2020. The jurisdiction of
this Court is invoked pursuant to 28 U.S.C. §1257(a). This petition is being filed in
accord with this Court’s March 19, 2020, COVID-19 order extending the deadline to file
any petition for a writ of certiorari to 150 days from the date of an order denying a
timely petition for rehearing.

-2-

CONSTITUTIONAL PROVISION INVOLVED
The Fourth Amendment to the United States Constitution provides:
The right of the people to be secure in their persons, houses, papers, and effects,
against unreasonable searches and seizures, shall not be violated, and no
Warrants shall issue, but upon probable cause, supported by Oath or
affirmation, and particularly describing the place to be searched, and the
persons or things to be seized.
U.S. Const. amend. IV.

-3-

STATEMENT OF THE CASE
Jonathan Lindsey was convicted after a stipulated bench trial of unlawful
possession with intent to deliver a controlled substance while within 1000 feet of a
school. Pet. App. 3a. The charge was based on evidence seized pursuant to a search
warrant for Lindsey’s motel room at the American Motor Inn. Pet. App. 3a. Lindsey
filed a pretrial motion to suppress evidence alleging that the government’s warrantless
use of a narcotics detection dog on his motel room door, on which probable cause was
based, was a search that violated his Fourth Amendment rights. Pet. App. 4a.
The warrant application stated the affiant police officer received information
from an unidentified confidential informant at some unknown time indicating that
Lindsey sold narcotics from the motel. Pet. App. 3a. Sometime before the warrant
application was submitted, another officer attempted a controlled buy for an
unspecified amount of narcotics from Lindsey at an unnamed location, but Lindsey did
not sell anything to the officer. Pet. App. 3a.
On April 27, 2015, the affiant observed Lindsey drive away in a car, and he
conducted a traffic stop because he knew Lindsey had a suspended driver’s license. Pet.
App. 3a. While Lindsey was arrested and transported to the police station, another
officer spoke to a motel staff member and learned Lindsey was staying in room 130.
Pet. App. 3a. Deputy Pena and his narcotics detection dog conducted a “free air sniff”
of room 130 with a positive alert. Pet. App. 3a.
At the hearing on Lindsey’s motion to suppress, an officer described the location
of Lindsey’s motel room, explaining that the door to the room was “set back in a little
alcove and as you stepped into the alcove to the right was Room 130 and . . . across the
hall to that would be Room 131.” Pet. App. 27a.

-4-

Deputy Pena testified that he and his K-9 partner, Rio, conducted a dog sniff of
the alcove and room 130. Pet. App. 28a. Pena described his directions to Rio to search
for the odor of narcotics:
I let him off lead and basically had him go to that side of the
building actually checking for free air sniffs alongside that
building. Once you reach Room 130, he changed his behavior,
alerting to the odor of narcotics. In this particular instance what
he did is he came up around the door handle and its seams and
he—an alert would be that he would actually sit and lay down,
which he did, indicating that he is in the odor of narcotics.
Pet. App. 22a, 28a. Pena also directed Rio to “show” him where the odor was coming
from and Rio “got within inches” of the door (R36). Pet. App. 28a.
The circuit court found that, while Lindsey had a reasonable expectation of
privacy in his motel room, it did not extend to the motel corridor, which was “a public
place of accommodation.” Pet. App. 5a. The court relied on United States v. Roby, 122
F.3d 1120 (8th Cir. 1997), which held that a dog sniff of a hotel room was not a search
under the Fourth Amendment, because “there [didn’t] seem to be any” Illinois case law
pertaining to dog sniffs of hotels. Pet. App. 4a. The court declined to create new case
law, even though the judge agreed with some of the issues raised in the Roby dissent.
Pet. App. 29a. The court denied the motion to suppress. Pet. App. 29a.
At Lindsey’s bench trial, the stipulated facts alleged that the police found heroin
inside Lindsey’s motel room and Lindsey admitted it was his. Pet. App. 4a. Lindsey
was convicted of unlawful possession with intent to deliver a controlled substance
within 1000 feet of a school and sentenced to seven years in prison. Pet. App. 5a.
On direct appeal, Lindsey argued that the circuit court erred in denying his
motion to suppress because the government’s conduct violated his reasonable
expectation of privacy in his motel room. Pet. App. 30a. The appellate court agreed and

-5-

reversed Lindsey’s conviction because the narcotics detection dog was “used to explore
the details previously unknown in Lindsey’s motel room, which the Supreme Court
established was entitled to constitutional protections.” Pet. App. 36a. Relying on Kyllo
v. United States, 533 U.S. 27 (2001), and United States v. Whitaker, 820 F.3d 849 (7th
Cir. 2016), the court found that, while Lindsey had a reduced expectation of privacy in
the area immediately joining his room, he still had a justifiable expectation of privacy
that the smell of narcotics in his room was undetectable until the officer focused the
dog sniff on the door and its seams. Pet. App. 33a–36a. Thus, the dog sniff violated
Lindsey’s Fourth Amendment rights. Pet. App. 36a.
The appellate court further held that the good-faith exception did not apply
because there was no binding precedent that Deputy Pena could have relied on to
justify the warrantless use of a drug-detection dog on a residence. Pet. App. 38a.
Instead, there was binding precedent for a reasonably well-trained officer to know that
motel guests have the same expectation of privacy in their dwelling space as residents
of a single-family home and an apartment, and that the use of sense-enhancing
technology not available to the general public to obtain information about activities
inside that dwelling was a search. Pet. App. 38a–40a. The court also found that the
police conduct should be deterred because it was “a deliberately executed attempt to
find drugs inside Lindsey’s hotel room.” Pet. App. 40a.
The dissenting justice opined that, even assuming the dog sniff was a search, the
good faith-exception would apply because the “relevant authority” indicated a hotel
tenant possessed a reduced expectation of privacy. Pet. App. 43a.
The Illinois Supreme Court granted the State of Illinois’s petition for leave to
appeal and reversed the judgment of the appellate court. Pet. App. 3a, 6a. The court
first conducted a property-based analysis and found there was no curtilage and, thus,
-6-

no Fourth Amendment violation on that basis. Pet. App. 8a–13a. In regard to Lindsey’s
privacy-based argument, the majority acknowledged that Lindsey had a reasonable
expectation of privacy inside his room. Pet. App. 15a. But “the only expectation of
privacy that matter[ed]” was the one in the alcove because that was the place that the
officer and dog searched. Pet. App. 15a–16a. Rio did not “teleport through the door” and
smell the air inside the room, but smelled the air in the alcove that “‘intermingled with
the public airspace.’” Pet. App. 16a. The court relied on United States v. Place, 462 U.S.
696 (1983), and Illinois v. Caballes, 543 U.S. 405 (2005). Pet. App. 15a. As such,
Lindsey’s Fourth Amendment rights were not violated by the dog sniff. Pet. App. 17a.
The dissenting justices opined that “Supreme Court precedent leaves no question
that a government agent’s use of a sophisticated monitoring device to obtain
information about the interior of an enclosed space in which a person has a reasonable
expectation of privacy constitutes a search under the fourth amendment.” Pet. App.
22a. The government’s conduct violated Lindsey’s reasonable expectation of privacy in
his motel room because the purpose of the sniff was to discover what was inside the
room and not in the alcove. Pet. App. 23a. The majority’s analysis of Lindsey’s privacy
interest in the alcove thus was irrelevant. Pet. App. 24a. The dissent further found that
a property-based analysis was unnecessary to resolution of the case. Pet. App. 24-25a.
Lindsey’s timely petition for rehearing was denied. Pet. App. 2a.

-7-

REASONS FOR GRANTING CERTIORARI
I.

The Illinois Supreme Court’s Decision Splits from this Honorable
Court’s Precedent Rejecting a “Mechanical Application” of the Fourth
Amendment and Holding that a Motel Guest Has the Same Reasonable
Expectation of Privacy as any Other Resident in Their Dwelling.
In order to determine whether government conduct constitutes a Fourth

Amendment search, this Court has applied two separate, and to some extent
overlapping, analyses. U.S. Const. amend. IV. In Florida v. Jardines, 569 U.S. 1, 9–12
(2013), this Court held that, under the property-based analysis, a warrant is required
when the government physically intrudes upon a constitutionally protected area, such
as the curtilage of a home. Under the privacy-based analysis, a warrant is required
when the government violates a subjective expectation of privacy that society
recognizes as reasonable. Katz v. United States, 389 U.S. 347, 348–49, 361 (1967). The
Illinois Supreme Court’s decision below, holding that the government’s warrantless use
of a narcotics detection dog on the door of a motel dwelling was not a search under the
Fourth Amendment, significantly splits from this Court’s precedent in two key areas.
A.

This Court Has Rejected a “Mechanical Application” of the Fourth
Amendment and Held That the Government Need Not Commit a
Physical Trespass to Violate a Person’s Fourth Amendment Rights.
In Katz, this Court considered whether a person’s Fourth Amendment rights

could be violated when in a public space. Katz, 389 U.S. at 348–49. The case concerned
the government’s warrantless use of an eavesdropping device on the surface of a public
phone booth, in order to hear the defendant’s conversations conducted inside it. Id. The
defendant asked this Court to determine whether the phone booth was a
constitutionally protected area, and whether the government’s physical penetration
thereof was necessary to find a violation of his Fourth Amendment rights. Id. at
349–50. But this Court rejected that formulation of the issues, finding that Fourth

-8-

Amendment protection extends to “people, not places.” Id. Accordingly, this Court
found that what a person “. . . seeks to preserve as private, even in an area accessible
to the public, may be constitutionally protected.” Id. (emphasis added).
Relying on Silverman v. United States, 365 U.S. 505 (1961), this Court
repudiated the government’s argument that its surveillance technique was not a
Fourth Amendment search because it did not physically penetrate the phone booth. Id.
at 352–53; see Silverman, 365 U.S. at 511 (“Inherent Fourth Amendment rights are not
inevitably measurable in terms of ancient niceties of tort or real property law.”). The
defendant had the expectation that what he said inside the phone booth would exclude
the “uninvited ear” and remain private. Id. Thus, the government’s conduct, “. . . in
electronically listening to and recording the petitioner’s words violated the privacy
upon which he justifiably relied while using the telephone booth and thus constituted
a ‘search and seizure’ within the meaning of the Fourth Amendment.” Id. at 353, 359.
Thereafter, the analytical inquiry applied in Katz was characterized in the
manner described in Justice Harlan’s concurrence: a Fourth Amendment search occurs
when the government’s conduct violates a person’s subjective expectation of privacy
that society recognizes as reasonable, i.e., reasonable expectation of privacy. Id. at 361
(Harlan, J., concurring); See Smith v. Maryland, 442 U.S. 735, 740 (1979) (adopting
formulation of Justice Harlan’s concurring opinion). In Kyllo v. United States, 533 U.S.
27, 29–30 (2001), this Court applied the Katz framework in consideration of whether
the government’s warrantless use of a thermal imaging device on a dwelling violated
the defendant’s reasonable expectation of privacy. The government aimed the device
“at a private home on a public street,” while parked in a car to detect heat inside on
suspicion that the defendant was using heat to unlawfully cultivate cannabis plants.
Kyllo, 533 U.S. at 29–30. The defendant moved to suppress the evidence on grounds
-9-

that his Fourth Amendment rights were violated by the government’s conduct. Id. The
lower court found no violation because the government did not physically penetrate the
dwelling’s walls and detected only heat radiating from outside the house, failing to
detect any intimate details or activities inside. Id. at 30.
As in Katz, this Court rejected the contention that the government’s conduct was
not a search simply because the device did not physically penetrate the dwelling. Id.
at 35. The government argued the device detected only heat radiating from the home’s
surface, and the dissent distinguished between “off-the-wall” observations and
“through-the-wall surveillance.” Id. But such a distinction was the same “mechanical
interpretation” rejected in Katz, wherein the surveillance device detected only sound
waves. Id. Kyllo found that reversing the Katz approach would “leave the homeowner
at the mercy of advancing technology . . .” Id. In response to the government’s
argument that the device did not detect or reveal any private activities in private
spaces, this Court reasoned that “[i]n the home, our cases show, all details are intimate
details, because the entire area is held safe from prying government eyes.” Id. at 37.
Consequently, this Court held that there are limits on how the government can
employ technology in conducting warrantless surveillance of a person’s dwelling,
emphasizing that, as to the interior of homes, “there is a ready criterion, with roots
deep in the common law, of the minimal expectation of privacy that exists, and that is
acknowledged to be reasonable. To withdraw protection of this minimum expectation
would be to permit police technology to erode the privacy guaranteed by the Fourth
Amendment.” Id. at 34 (emphasis in original). The government’s use of the thermal
imaging device was a Fourth Amendment search because it utilized a device, not
available to the general public, to discern details of the dwelling unknowable without
physical intrusion. Id. at 40.
-10-

The government conduct at issue here was the same as in Katz and Kyllo. The
dissenting justices in Kyllo foresaw that use of a narcotics detection dog (or similar
mechanism) on a dwelling would be a Fourth Amendment search under the Kyllo
majority’s decision. Kyllo, 533 U.S. at 47–48 (Stevens, J., dissenting). The concurring
justices in Jardines also reasoned that, like the thermal imaging technology in Kyllo,
a narcotics detection dog is a sense-enhancing tool, not available to the general public,
that violates a resident’s reasonable expectation of privacy that the details of their
dwelling will remain private. Jardines, 569 U.S. at 12–16 (Kagan, J., concurring). To
find otherwise would leave motel guests at the mercy of developing technology that
could allow the government to discern what was inside their rooms without physically
entering them. Kyllo, 533 U.S. at 35–36.
Jonathan Lindsey rented a motel room for an undetermined period of time. Pet.
App. 3a. Law enforcement suspected him of dealing narcotics and attempted, without
success, to arrange a controlled drug buy at an unnamed location. Pet. App. 3a. They
subsequently conducted surveillance of the motel and arrested Lindsey after he drove
away in a car, due to the status of his suspended drivers license. Pet. App. 3a. Officers
then asked motel staff what room Lindsey was staying in, after which Deputy Pena
and his narcotics detection dog, Rio, conducted a “free air sniff” of the motel walkway
without a warrant. Pet. App. 3a. When Pena and Rio reached the alcove that housed
the closed doors to Lindsey’s room and another room, Pena directed Rio to sniff
Lindsey’s motel room door, and Rio gave a positive alert. Pet. App. 28a. The officers
then obtained a search warrant for the room, where they discovered heroin. Pet. App.
4a. Because the government used a device, not available to the public, to discern
details of Lindsey’s dwelling unknowable without physical intrusion, Lindsey’s Fourth
Amendment rights were violated when Pena directed Rio to sniff his motel room door.
Kyllo, 533 U.S. at 40.
-11-

But the Illinois Supreme Court found that the government’s conduct did not
violate Lindsey’s Fourth Amendment rights. Pet. App. 17a. While acknowledging
Lindsey had a reasonable expectation of privacy inside his motel room, the Court found
that “[t]he only expectation of privacy that matters” was the one he had in the alcove
outside his room. Pet. App. 15a–16a. The “place searched” was not Lindsey’s motel
room, but the alcove, where Rio smelled the odor of narcotics that “intermingled with
the public airspace.” Pet. App. 16a. Rio did not detect the odor inside of the room
because he did not “teleport through the door.” Pet. App. 16a.
This application of the Fourth Amendment was precisely the kind of “mechanical
interpretation” repudiated by this Court in Katz and Kyllo. Kyllo, 533 U.S. at 35; Katz,
389 U.S. at 348–49.
B.

This Court’s Precedent Has Long Held That Motel Guests Have a
Reasonable Expectation of Privacy in Their Dwelling.
Under this Court’s longstanding precedent, motel guests are entitled to the same

Fourth Amendment protection against unreasonable searches and seizures as any
other resident of a dwelling. See Stoner v. California, 376 U.S. 483, 490 (1964) (“No less
than a tenant of a house, or the occupant of a room in a boarding house (citation), a
guest in a hotel room is entitled to constitutional protection against unreasonable
searches and seizures.); Johnson v. United States, 333 U.S. 10, 12 (1948) (finding
Fourth Amendment violation when police searched defendant’s hotel room that was
characterized as her “home”). In Minnesota v. Olson, 495 U.S. 91 (1990), this Court
explicitly stated:
. . . although we may spend all day in public places, when we
cannot sleep in our own home we seek out another private place to
sleep, whether it be a hotel room, or the home of a friend. Society
expects at least as much privacy in these places as in a telephone
booth—‘a temporarily private place whose momentary occupants’
-12-

expectations of freedom from intrusion are recognized as
reasonable.’
Olson, 495 U.S. at 99 (quoting Katz, 389 U.S., at 361 (Harlan, J., concurring)).
This Court noted in Kyllo that, “[w]hen the Fourth Amendment was adopted, as
now, to ‘search’ meant ‘[t]o look over or through for the purpose of finding something;
to explore; to examine by inspection; as, to search the house for a book; to search the
wood for a thief.’” Kyllo, 533 U.S. at at 32, n.1 (quoting N. Webster, An American
Dictionary of the English Language 66 (1828) (reprint 6th ed. 1989)). Pena and Rio did
not engage in such conduct to find narcotics in the alcove. Rio was directed to sniff the
door, and his positive alert was used as probable cause to search Lindsey’s room—not
the other room whose entrance also was in the alcove. Pet. App. 22a, 28a. As the
dissenting justices recognized, “[w]ithout question, the dog sniff collected information
about the interior of defendant’s motel room, a space in which the majority concedes
defendant had a reasonable expectation of privacy. The dog sniff was therefore a search
of the room.” Pet. App. 23a. Thus, the government examined the motel door and its
seams to discover narcotics inside the room—just as the government in Katz sought to
discover what was said inside the phone booth, and in Kyllo, to discover the heat inside
the house. Kyllo, 533 U.S. at 29–30, 35; Katz, 389 U.S. at 349–50, 352–53. Lindsey
therefore had a reasonable expectation that what was inside his room would remain
private. Kyllo, 533 U.S. at 34; Katz, 389 U.S. at 361 (Harlan, J., concurring); Stoner,
376 U.S. at 490. By focusing on Lindsey’s privacy rights in the alcove, instead of his
reasonable expectation of privacy in his motel room, the Illinois Supreme Court broke
with this Court’s longstanding precedent.
The Illinois Supreme Court likened the government conduct at issue here to the
government conduct in United States v. Place, 462 U.S. 696 (1983), and Illinois v.
-13-

Caballes, 543 U.S. 405 (2005). Pet. App. 15a. In Place, this Court found that the dog
sniff performed on the exterior of a suitcase in an airport was not a Fourth Amendment
search because it was “much less intrusive than a typical search,” and the defendant
had no reasonable expectation of privacy in possessing contraband. Place, 462 U.S. at
707. Similarly, in Caballes, this Court found that the dog sniff of the exterior of the
defendant’s car on a public road, during a lawful traffic stop, was not a Fourth
Amendment search because there was no legitimate privacy interest in narcotics.
Caballes, 543 U.S. at 409–10. But those dog sniffs were conducted in notoriously public
spaces, where a person’s expectation of privacy is considerably less than in a motel
room. See, e.g., New York v. Class, 475 U.S. 106, 112–13 (1986) (recognizing physical
characteristics of automobile and its use result in lessened expectation of privacy
therein). Such analogizing leads to the inevitable conclusion that motels are not
dwellings for Fourth Amendment purposes when the government uses a narcotics
detection dog there without a warrant, but are controlled by the public dog sniffs in
Place and Caballes.
The Illinois Supreme Court’s focus on the alcove appears to be due, in part, to
beginning its inquiry with a property-based analysis of the government’s conduct that
this Court applied in Jardines. Pet. App. 8a–13a; see Jardines, 569 U.S. at 9–12. There
was no such trespass because the motel room did not have curtilage. Pet. App. 12a. The
appellate court did not conduct a curtilage analysis because there had been no
technical trespass. Instead, the appellate court followed this Court’s precedent in Katz
and Kyllo and assessed whether the defendant’s reasonable expectation of privacy in
his room had been violated. Pet. App. 33a–36a; Kyllo, 533 U.S. at 32–33; Katz, 389 U.S.
at 353. Thus, the Illinois Supreme Court’s inquiry resulted in a Katz analysis that

-14-

proceeded like a property-based inquiry in its focus on whether the government
physically entered a constitutionally protected space, rather than whether the
defendant’s Fourth Amendment rights in his room were violated by the government’s
conduct.
Such an inquiry results in the conclusion that residents of dwellings without
curtilage do not have Fourth Amendment protection from the government’s
warrantless use of certain kinds of sense-enhancing technology on their dwellings. This
conclusion splits with this Court’s precedent that makes no such distinction between
types of dwellings, but has held that residents should not be left to the mercy of
developing technology that allows the government to discern what is inside their
dwellings without physically entering them. Kyllo, 533 U.S. at 35–36.
The Illinois Supreme Court’s decision thus creates a split from this Court’s
precedent repudiating a “mechanical application” of the Fourth Amendment and
longstanding precedent that motel guests have Fourth Amendment protection from
government intrusion into their dwellings. Certiorari is appropriate to bring clarity
and uniformity to these important aspects of Fourth Amendment jurisprudence.
II.

This Court Should Resolve the Split Over Whether Narcotics Dog Sniffs
of Dwellings Without Curtilage Are Fourth Amendment Searches.
In Florida v. Jardines, 569 U.S. 1, 5 (2013), this Court affirmed the Florida

Supreme Court’s decision that the government’s warrantless use of a narcotics
detection dog on the front door of a home violated the resident’s Fourth Amendment
rights. But Jardines did not affirm the lower court’s application of a privacy-based
approach to the question, or embrace its conclusion that the dog sniff violated the
defendant’s reasonable expectation of privacy in his home. Jardines v. State, 73 So.3d
34, 45–50, 55–56 (Fla. 2011), aff'd sub nom. Jardines, 569 U.S. at 12. The property-15-

based approach was applied because the government gained evidence by physically
intruding into the constitutionally-protected curtilage of the home. Jardines, 569 U.S.
at 6–12. Jardines thus held that when the government so intrudes, it is unnecessary
to consider the privacy-based approach employed in Katz. Id. at 11. Three of the five
majority justices, however, concurred that the defendant’s Fourth Amendment rights
also were violated under the privacy-based approach applied in Kyllo v. United States,
533 U.S. 27 (2001), because the dog sniff violated his reasonable expectation of privacy
in his home. Id. at 12–16 (Kagan, J., concurring).
Jardines did not resolve how to assess whether a Fourth Amendment search
occurs when the government conducts a warrantless dog sniff of dwellings without
curtilage, usually located in multi-unit buildings. As discussed in the previous section,
the analytical approach to the specific question of whether the dog sniff of a motel door
should be the same as the approach to any dwelling without curtilage because this
Court has held that a motel guest has the same Fourth Amendment rights in his
dwelling as any other resident. Yet there is a split among federal circuits and state
courts on the question of whether a warrantless dog sniff violates a person’s reasonable
expectation of privacy in such dwellings. The Illinois Supreme Court’s decision below
widens the split.
Twenty-four years ago, the Eighth Circuit in United States v. Roby, 122 F.3d
1120, 1124 (8th Cir. 1997), held that the warrantless dog sniff of the defendant’s hotel
room door did not violate his “legitimate expectation of privacy” in the hotel hallway.
The court found the defendant’s reasonable expectation of privacy in his room did not
extend into the hallway because it was “traversed by many people.” Id. at 1125.
Further, while a dog is a “more skilled” odor detector than a human, the dog’s detection

-16-

was akin to plain smell. Id. It is noteworthy that Roby relied, in part, on the Eighth
Circuit’s decision in United States v. Pinson, 24 F.3d 1056 (8th Cir. 1994). See Id.
(describing Pinson as applying “plain feel” exception to the Fourth Amendment). The
court in that case held the government’s use of an infrared surveillance device on the
defendant’s roof was not a Fourth Amendment search. Pinson, 24 F.3d at 1057. Pinson
analogized the government’s use of the device to the “warrantless use of police dogs
trained to sniff and identify the presence of drugs.” Id. at 1058. The defendant did not
have a reasonable expectation of privacy in the heat that was “radiating from his house
into the surrounding air space.” Id. The court further found that, “[j]ust as odor escapes
a compartment or building and is detected by the sense-enhancing instrument of a
canine sniff, so also does heat escape a home and is detected by the sense-enhancing
infrared camera.” Id.
Pinson, as well as Roby, were decided before this Court held in Kyllo v. United
States, 533 U.S. 27, 40 (2001), that the government’s warrantless use of a thermal
imaging device indeed was a Fourth Amendment search because it violated the
defendant’s reasonable expectation of privacy in his home. Kyllo also held that Fourth
Amendment protection in the home “has never been tied to measurement of the quality
or quantity of information obtained,” and that all details in the home were intimate.
Kyllo, 533 U.S. at 37. But some state appellate courts still applied the same framework
as the court did in Roby to warrantless dog sniffs of dwellings without curtilage. In
conflict with Kyllo, these courts analyzed whether the defendant had a reasonable
expectation of privacy in the space just outside the dwelling and in the contraband that
was sought, and found no Fourth Amendment search because the defendant did not
have a reasonable expectation of privacy in either. See Sanders v. Commonwealth, 772

-17-

S.E.2d 15, 23–25 (Va. Ct. App. 2015) (warrantless dog sniff of hotel room not a Fourth
Amendment search because defendant did not have a reasonable expectation of privacy
in public hotel walkway, odor “intermingled with the public airspace,” and dog sniff
revealed only presence or absence of contraband); State v. Foncette, 356 P.3d 328,
331–32 (Ariz. Ct. App. 2015) (warrantless dog sniff of hotel room not a Fourth
Amendment search because defendant did not have a reasonable expectation of privacy
in public walkway or in possessing contraband).
Some state Supreme Courts applied the same framework to warrantless dog
sniffs of apartment doors and found no Fourth Amendment search. See State v.
Nguyen, 841 N.W.2d 676, 681–82 (N.D. 2013) (warrantless dog sniff on apartment door
not a search because defendant had no reasonable expectation of privacy in common
hallways or “legitimate expectation of privacy” in government conduct that revealed
only the presence of contraband); State v. Edstrom, 916 N.W.2d 512, 522–23 (Minn.
2018) (warrantless dog sniff of apartment door not a Fourth Amendment search
because there is no legitimate privacy interest in contraband).
These cases appear to conclude that the government does not need a warrant
when it uses a narcotics detection dog to detect what is inside a dwelling without
curtilage.
Conversely, other federal circuits courts have found that the pertinent space to
be considered is inside the dwelling. The Second Circuit in United States v. Thomas,
757 F.2d 1359, 1366–67 (2d Cir. 1985), found the dog sniff of an apartment door was
a Fourth Amendment search because it violated the defendant’s “legitimate
expectation that the contents of his closed apartment would remain private. . . [and]
could not be ‘sensed’ from outside his door.” Thomas referred to the defendant’s

-18-

apartment as his “dwelling place,” and found that the purpose of the dog sniff was to
detect “the contents of a private, enclosed space.” Id. at 1367. The dog sniff was not just
an improvement of the human sense of smell, but “a significant enhancement
accomplished by a different, and far superior, sensory instrument.” Id. The court
reasoned, “It is one thing to say that a sniff in an airport is not a search, but quite
another to say that a sniff can never be a search.” Id. at 1366. While a dog sniff may
be permissible in a public airport (United States v. Place, 462 U.S. 696, 707 (1983)), it
was “intrusive when employed at a person’s home.” Id.
More recently, the Seventh Circuit in United States v. Whitaker, 820 F.3d 849,
851–54 (7th Cir. 2016), also found that the dog sniff of an apartment door was a Fourth
Amendment search. Relying on Kyllo, the court found that “a dog search conducted
from an apartment hallway” was controlled by the Kyllo “rule”: the government used
a sense-enhancing device, not available to the general public, to discover what was
otherwise undetectable without physically entering the dwelling. Id. at 853. Strikingly,
the court reasoned the defendant’s lack of “a reasonable expectation of complete
privacy” in the apartment hallway did not mean he had no reasonable expectation of
privacy against people using the hallway to discover what was inside his dwelling by
way of a device not available to the general public. Id. The court analogized the
government’s use of the trained narcotics detection dog on the door to the use of a
stethoscope on the door that discerned conversations inside an apartment; such
conduct was not an expected norm of behavior from anyone in the common hallway of
a multi-unit dwelling and requires a warrant. Id. at 853–54. Whitaker also
distinguished Place and Caballes because the dog sniffs in those cases were conducted
in public and did not “implicate[] the Fourth Amendment’s core concern of protecting
the privacy of a home.” Id. at 853.

-19-

These cases appear to conclude that a defendant’s dwelling need not have
curtilage to ensure they have Fourth Amendment protection inside their dwellings.
It is also worth noting that some courts have found the space immediately
outside the doors of certain multi-unit dwellings constituted curtilage, and the
government’s warrantless dog sniffs there were Fourth Amendment searches. See
United States v. Hopkins, 824 F.3d 726, 732 (8th Cir. 2016) (warrantless dog sniff was
Fourth Amendment search because “area immediately in front of” defendant’s door of
rented townhome was curtilage where it was within a foot of townhome, used everyday
by residents, and “daily experience” suggested it was curtilage despite not being
enclosed or protected from observation); People v. Bonilla, 120 N.E.3d 930, 937–39 (Ill.
2018) (warrantless dog sniff of apartment door was Fourth Amendment search because
threshold of door was the same as the front porch in Jardines).
It cannot be that the Fourth Amendment is applied differently across state
borders, let alone in the same state. For example, the Illinois Supreme Court’s decision
below directs municipal and state law enforcement that warrantless dog sniffs of
dwellings without curtilage are lawful under the Fourth Amendment. Pet. App. 17a.
But under Whitaker, federal law enforcement must first obtain a warrant, or an
exception to the probable cause requirement, before conducting such a dog sniff.
Whitaker, 820 F.3d at 851–54. In order to ensure uniformity and consistency in
application of the Fourth Amendment, this Court should resolve the split in authority
over whether the government’s warrantless use of a narcotics detection dog on
dwellings without curtilage is a Fourth Amendment search.
III.

This Case is an Ideal Opportunity for Resolving these Important and
Recurring Questions of Fourth Amendment Jurisprudence.
This case presents an ideal opportunity for this Court to resolve the splits in

authority discussed above. As the facts are not in dispute, the inquiries presented are
-20-

questions of pure law. Moreover, the case law cited in this petition demonstrates the
frequent recurrence of the question of whether the government’s warrantless use of a
narcotics detection dog on a dwelling without curtilage is a Fourth Amendment search.
This Court has the opportunity to decide whether such government conduct should be
controlled by Katz and Kyllo, or by Place and Caballes.
Lindsey’s motel room presents this Court with an ideal opportunity to address
this question and its inherent considerations. A traditional curtilage concept and
analysis do not apparently apply to motels, due to the more transient nature of motel
stays. As such, the government will not likely commit a physical intrusion into such
spaces when conducting a dog sniff of the dwelling.
Further, this case presents this Court with the opportunity to consider the
practical effect of allowing the government to conduct warrantless dog sniffs on only
certain dwellings. Relying on the Census’s American Housing survey of 2013, the
Whitaker court reported that 67.8% of White households lived in single-unit houses,
followed by 52.1% of Hispanic households, and 47.2% of Black households. United
States v. Whitaker, 820 F.3d 849, 854 (7th Cir. 2016). Additionally, 84% of single-unit
households earned more than $120,000 and 40.9% earned less than $10,000. Id. Motels
are less-stable housing where residents are more transient and have varying lengths
of inhabiting the dwelling. The application of the privacy-based approach employed in
Kyllo to such multi-unit dwellings without curtilage could avoid the potentially
discriminatory effect of police use of dog sniffs only on dwellings more likely to be
inhabited by low-income people of color. While such government monitoring of these
spaces is both unexpected and unwarranted, under the Illinois Supreme Court’s
decision, it could very well become commonplace in Illinois.

-21-

The Illinois Supreme Court’s decision thus creates a split from this Court’s
precedent repudiating a “mechanical application” of the Fourth Amendment and
longstanding precedent that motel guests have Fourth Amendment protection from
unreasonable searches and seizures inside their dwellings. It also widens the split
between courts as to what the requisite privacy interest is in analyzing whether the
government’s warrantless use of a narcotics detection dog on a dwelling without
curtilage violates the resident’s reasonable expectation of privacy in their dwelling.
Certiorari is appropriate to bring clarity and uniformity to these important aspects of
Fourth Amendment jurisprudence.

-22-

CONCLUSION
For the foregoing reasons, petitioner, Jonathan Lindsey, respectfully prays that
a writ of certiorari issue to review the judgment of the Illinois Supreme Court.

Respectfully submitted,
i
THOMAS A. KARALIS
Counsel of Record
Deputy Defender
Office of the State Appellate Defender
Third Judicial District
770 E. Etna Road
Ottawa, IL 61350
(815) 434-5531
3rc~DistrictGosad.state.il.us
COUNSEL FOR PETITIONER
Of Counsel:
Editha Rosario-Moore
Assistant Appellate Defender

-23-

